Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   CENLA COMMUNITY ACTION
         COMMITTEE’S
    FINANCIAL MANAGEMENT
  PRACTICES AND SYSTEMS DID
  NOT ALWAYS MEET FEDERAL
        REQUIREMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Patricia Wheeler
                                               Regional Inspector General

                                                       August 2012
                                                      A-06-11-00032
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET , R OOM 632
                                                                                  D ALLAS , TX 75242
August 17, 2012



Report Number: A-06-11-00032

Ms. Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202

Dear Ms. Chalk:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Cenla Community Action Committee’s Financial
Management Practices and Systems Did Not Always Meet Federal Requirements. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Ms. Kimberly Chalk


If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-11-00032 in all
correspondence.

                                           Sincerely,



                                           /Patricia Wheeler/
                                           Regional Inspector General
                                             for Audit Services


Enclosure


Direct Reply to HHS Action Official:

Ms. Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202

cc:
Ms. Ann Linehan
Deputy Director
Office of Head Start
Portals Building, Suite 8000
1250 Maryland Avenue, SW
Washington, DC 20024

Ms. Yolanda Wise
Head Start Program Specialist
Office of Head Start
Portals Building, Suite 8000
1250 Maryland Avenue, SW
Washington, DC 20024
                                 EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing
educational, health, nutritional, and social services. Pursuant to P.L. No. 110-134, Improving
Head Start for School Readiness Act of 2007, Early Head Start is a national program designed to
promote healthy prenatal outcomes for pregnant women, enhance the development of very young
children, and promote healthy family functioning.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Cenla Community Action Committee, Inc. (Cenla), a nonprofit agency, operates an Early Head
Start program and a Head Start program that together serve children from 6 months to age 5 and
pregnant women and families at locations in Rapides Parish, Louisiana. Cenla is funded
primarily through Federal Government grants. During FY 2010 (April 1, 2009, through March
31, 2010), OHS provided Head Start and Early Head Start funds to Cenla totaling $7,317,615,
which included $829,500 in Recovery Act funds. Cenla also received funds from the U.S.
Department of Agriculture, the Community Services Block Grant program, and the Home
Energy Assistance Program.

OBJECTIVE

Our objective was to determine whether Cenla’s financial management practices and systems
met Federal requirements.

SUMMARY OF FINDINGS

Cenla’s financial management practices and systems did not always meet Federal requirements.
Specifically, Cenla:

       claimed consultant costs without an adequate contractual agreement;

       did not ensure that joint costs were allocated properly among various programs
       administered by Cenla;



                                               i
      had not tagged equipment for identification and inventory purposes;

      did not accurately record equipment in the inventory log, resulting in the log containing
      serial and tag numbers that did not reconcile with the numbers on the equipment;

      did not conduct physical inventories every 2 years and completed inventories without
      adequate segregation of duties;

      did not follow written procurement procedures by purchasing items without the required
      purchase requisitions/orders, obtaining the required bids, or obtaining the required
      approvals;

      claimed unallowable and excessive volunteer services as non-Federal share;

      secured loans using Head Start-purchased real property as collateral without proper
      approval;

      did not comply with its credit card policy; and

      did not adequately safeguard and manage checks.

RECOMMENDATIONS

We recommend that OHS:

      impose special award conditions to address the shortcomings of Cenla’s financial system
      and to ensure that Cenla conforms to Federal requirements and the terms and conditions
      of the grant award;

      ensure that Cenla’s contractual agreements are adequate and that it maintains records for
      fixed-fee contracts sufficient to demonstrate that the fixed fee is reasonable;

      work with Cenla to determine whether the fixed fee for the consultant is reasonable and
      whether future payments on the contract should be made;

      review Cenla’s cost allocation plan to determine appropriateness and coverage;

      work with Cenla to determine the amount of joint costs, identified in the body of the
      report under “Cost Allocation,” that were not properly allocated to the Head Start
      program and require Cenla to refund that amount; and

      provide Cenla technical assistance and guidance to ensure that it:

         o allocates costs according to cost allocation plans,

         o accurately maintains property records,
                                               ii
           o follows its policies for performing a physical inventory at least once every 2 years
             and that it segregates duties so that individuals who maintain property records are
             not the same individuals who perform the physical inventory,

           o requires employees to follow its written procedures for procurement,

           o claims non-Federal share only for volunteer services and parent/child home
             activities that are necessary and reasonable to properly and efficiently accomplish
             program objectives,

           o does not use real property purchased with Head Start funds as collateral on loans
             without proper approval,

           o requires employees to follow its written credit card policy, and

           o develops more robust policies and procedures for safeguarding and managing
             checks (including having upper management oversee those who are responsible
             for handling checks).

CENLA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cenla agreed with five findings, disagreed with eight
findings, and did not address three findings. Cenla described the corrective actions that it
planned to take to address some of the findings with which it disagreed and those with which it
concurred. Cenla’s comments are included in their entirety as Appendix A. Nothing in Cenla’s
comments caused us to change our findings or recommendations.

OFFICEOF HEAD START COMMENTS

In written comments on our draft report, OHS concurred with all of our recommendations.
OHS’s comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Head Start Program ..............................................................................................1
              Cenla Community Action Committee, Inc ..........................................................1
              Federal Requirements ..........................................................................................1
              Special Award Conditions ...................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          FIXED-FEE CONTRACT FOR CONSULTANT ..........................................................4

          COST ALLOCATION.....................................................................................................4
               Federal Requirements ..........................................................................................4
               Administration Salaries ........................................................................................5
               Mortgages ............................................................................................................5
               Internet Service ....................................................................................................6
               Travel ...................................................................................................................6
               Other Costs...........................................................................................................6

          PROPERTY RECORDS..................................................................................................6

          INEFFECTIVE EQUIPMENT INVENTORY CONTROL PROCEDURES .................7
               Federal Requirements ..........................................................................................7
               Inventory Not Completed Every Two Years .......................................................7
               Inadequate Segregation of Duties ........................................................................8

          PROCUREMENT PROCEDURES .................................................................................8

          NON-FEDERAL SHARE ...............................................................................................9

          REAL PROPERTY ACQUIRED OR IMPROVED WITH GRANT FUNDS ...............9

          CREDIT CARD POLICY................................................................................................10

          FISCAL CONTROL AND ACCOUNTABILITY ..........................................................10



                                                                    iv
    RECOMMENDATIONS .................................................................................................10

    CENLA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE.......11
         Office of Inspector General’s Statutory Authority ..............................................12
         Claimed Consultant Costs Without an Adequate Contractual Agreement ..........12
         Did Not Ensure That Joint Costs Were Allocated Among Various Programs
          Administered by Cenla ......................................................................................13
         Did Not Tag Equipment for Identification and Inventory Purposes ....................14
         Did Not Accurately Record Equipment in the Inventory Log .............................14
         Did Not Conduct Physical Inventory Every Two Years ......................................14
         Completed Inventories Without Adequate Segregation of Duties .......................14
         Did Not Follow Written Procurement Procedures ...............................................15
         Claimed Unallowable d Excessive Volunteer Services as Non-Federal Share ...15
         Secured Loans Using Head Start-Purchased Real Property as Collateral
          Without Proper Approval ...................................................................................15
         Did Not Comply With Its Credit Card Policy......................................................15
         Did Not Adequately Safeguard and Manage Checks ..........................................16

    OFFICE OF HEAD START COMMENTS ....................................................................16

APPENDIXES

    A: CENLA COMMENTS

    B: OFFICE OF HEAD START COMMENTS




                                                         v
                                      INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing
educational, health, nutritional, and social services. Pursuant to P.L. No. 110-134, Improving
Head Start for School Readiness Act of 2007, Early Head Start is a national program designed to
promote healthy prenatal outcomes for pregnant women, enhance the development of very young
children, and promote healthy family functioning.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families, Office of Head Start (OHS), administers the Head Start program. In
fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living increases
for grantees, upgrading centers and classrooms, and bolstering training and technical assistance.

Cenla Community Action Committee, Inc.

Cenla Community Action Committee, Inc. (Cenla), a nonprofit agency, operates an Early Head
Start program and a Head Start program that together serve children from 6 months to age 5,
pregnant women, and families at locations in Rapides Parish, Louisiana. Cenla is funded
primarily through Federal grants. During FY 2010 (April 1, 2009, through March 31, 2010),
OHS provided Head Start and Early Head Start funds to Cenla totaling $7,317,615, which
included $829,500 in Recovery Act funds. Cenla also received funds from the U.S. Department
of Agriculture, the Community Services Block Grant program, and the Home Energy Assistance
Program.

Federal Requirements

Federal regulations (45 CFR § 1301.10(a)) state that nonprofit Head Start and Early Head Start
grantees are subject to the uniform grant administrative requirements under 45 CFR part 74.
Pursuant to 45 CFR § 74.27(a), the allowability of costs is to be determined in accordance with
the Federal cost principles applicable to the entity incurring the costs. For nonprofit
organizations, the provisions of 2 CFR part 230, Cost Principles for Non-Profit Organizations
(Office of Management and Budget (OMB) Circular A-122), are applicable. These cost
principles state that costs must meet to be allowable.

Grantees must maintain financial management systems in accoradance with 45 CFR § 74.21.
Pursuant to 45 CFR § 74.21(b)(6), grantees must maintain financial management systems that
                                                1
contain written procedures for determining the allowability of costs in accordance with
applicable Federal cost principles and the terms and conditions of the award. Grantees also must
maintain accounting records that are supported by source documentation (45 CFR § 74.21(b)(7))
and financial systems that provide for accurate and complete reporting of grant-related financial
data (45 CFR § 74.21(b)(1)). Grantees must have effective controls and safeguards in place to
ensure accountability over funds, property, and other assets (45 CFR § 74.21(b)(3)) and to
maintain records that sufficiently identify the source and application of funds for HHS awards
(45 CFR § 74.21(b)(2)).

Special Award Conditions

Pursuant to 45 CFR § 74.14, OHS may impose additional requirements if a grant recipient has a
history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Cenla’s financial management practices and systems
met Federal requirements.

Scope

We performed this review based on a request from OHS. Therefore, we did not perform an
overall assessment of Cenla’s internal control structure. Rather, we reviewed only the internal
controls that pertained directly to our objective. Our review period was FY 2010.

We performed our fieldwork at Cenla’s administrative office in Alexandria, Louisiana.

Methodology

To accomplish our objective, we:

        reviewed relevant Federal laws, regulations, and guidance;

        reviewed Cenla’s financial procedures related to accounting, procurement, property,
        personnel, consultants, and budget;

        reviewed grant award documentation to determine Cenla’s Federal funding;

        interviewed Cenla’s management to gain an understanding of internal control procedures
        related to accounting, procurement, and property;

        reviewed Cenla’s property records and observed a physical inventory at two facilities;

                                                2
       selected a judgmental sample of purchases and traced them through Cenla’s procurement
       process;

       reviewed documentation supporting Cenla’s non-Federal share amounts for FY 2010 and
       February 2011; and

       reviewed the composition of Cenla’s board of directors and the board meeting minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Cenla’s financial management practices and systems did not always meet Federal requirements.
Specifically, Cenla:

       claimed consultant costs without an adequate contractual agreement;

       did not ensure that joint costs were allocated properly among various programs
       administered by Cenla;

       had not tagged equipment for identification and inventory purposes;

       did not accurately record equipment in the inventory log, resulting in the log containing
       serial and tag numbers that did not reconcile with the numbers on the equipment;

       did not conduct physical inventories every 2 years and completed inventories without
       adequate segregation of duties;

       did not follow written procurement procedures by purchasing items without the required
       purchase requisitions/orders, obtaining the required bids, or obtaining the required
       approvals;

       claimed unallowable and excessive volunteer services as non-Federal share;

       secured loans using Head Start-purchased real property as collateral without proper
       approval;

       did not comply with its credit card policy; and

       did not adequately safeguard and manage checks.



                                                3
FIXED-FEE CONTRACT FOR CONSULTANT

Cost principles (2 CFR part 230, Appendix B, paragraph 37) state that the reasonableness and
allowability of costs for consultant services are determined by multiple factors, including: (1)
the nature and scope of the service rendered in relation to the service required; (2) the necessity
of contracting for the service, considering the nonprofit organization’s capability in the particular
area; (3) whether the service can be performed more economically by employees rather than
contractors; and (4) the adequacy of the contractual agreement (e.g., description of the service,
estimate of the time required, rate of compensation, and termination provisions).

Federal regulations (45 CFR § 74.44) require grantees to have written procurement procedures
that provide for sufficient controls and safeguards over the procurement process. Regulations
(45 CFR § 74.45) require the grantee to document the cost or price analysis in the procurement
file for each procurement action.

According to Cenla’s procurement policy on contracts, the financial manager should maintain
records sufficient to detail the “significant history of procurement.” These records should
include information on the rationale for the method of procurement, selection of the contract
type, contractor selection or rejection, and basis for the cost or price.

We were uanable to determine whether $4,098 claimed for a computer consultant was
reasonable.1 While the contract described the types of technical support services to be rendered
and the fixed monthly fee, it did not contain an estimate of the time required for services. The
contract provides for the consultant to receive a fixed monthly fee regardless of the number of
service hours provided. The contractual agreement is effective for 61 months (January 2010
through January 2015) and does not include a termination provision. Additionally, Cenla did not
bid fixed-fee contracts or have support in the procurement file showing the basis for the price.

COST ALLOCATION

Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the allowability of costs in accordance with
applicable Federal cost principles and the terms and conditions of the award. Grantees must
maintain accounting records that are supported by source documentation and must maintain
financial systems that provide for accurate and complete reporting of grant-related financial data.
Grantees also are required to compare outlays with budget amounts for each award, must
maintain records sufficient to identify the source and application of funds for HHS awards, and
may use grant funds only for authorized purposes.

Cost principles (2 CFR part 230, Appendix A, § D.4) state that joint costs must be prorated using
a base which accurately measures the benefits provided to each award. The base must be
established in accordance with reasonable criteria and be supported by current data.

1
 The contractual agreement called for monthly fixed payments of $1,366. Three months of the contract fell within
our audit period, accounting for $4,098 in payments.
                                                        4
Cost principles (2 CFR part 230, Appendix B, §§ 8.b and 8.m) state that for salaries and wages to
be allowable for Federal reimbursement, grantees must maintain an after-the-fact certification of
the actual activity for each employee working on Federal awards. The certification must be
signed by the employee or a supervisory official having firsthand knowledge of the employee’s
activities, be prepared monthly, coincide with one or more pay periods, and account for the total
activity of the employee. Budget estimates determined before the services are performed do not
qualify as support for charges to awards.

Administration Salaries

Cenla’s cost allocation plan states that “personnel services cost allocation will be reflected by
payroll timesheets.” In addition, Cenla will make yearly evaluations to correct and/or adjust
budget line items if there are significant changes reflected by time usage in “work reports.” The
plan requires each central office employee to complete a daily or hourly attendance report for
each pay period. All programs should then be charged directly for the time each staff member
spent on them.

We verified that administration staff salaries were allocated to the various programs Cenla
administers. However, Cenla was unable to provide support for the percentages it used to
allocate the salaries. The financial manager told us that salaries were allocated based on
budgeted amounts, not timesheets or timestudies. In addition, Cenla employee timesheets
documented only the number of hours employees worked each day; they did not reflect the
programs on which the employees worked. An independent auditor had previously informed
Cenla that its cost allocation plan was not sufficient.2

Mortgages

Cenla’s cost allocation plan did not address the allocation of costs associated with mortgages.
The financial manager told us that building costs were allocated based on square footage;
however, Cenla did not provide floor plans or breakdowns of square footage. Our review
identified the following:

        Cenla paid the entire central office monthly mortgage payment of $2,078 ($24,936 for
        FY 2010) with its Head Start funds even though Cenla also administers a Community
        Services Block Grant (CSBG), a Child and Adult Care Food Program, a Home Energy
        Assistance Program, and a Senior Citizens Program from this building.




2
  Cenla’s current independent auditor had not reported any findings related to cost allocation. However, Cenla’s
previous independent auditor reported findings related to cost allocation in its 2003, 2004, and 2005 audit reports.
For example, the 2005 report stated that “certain employees’ time is allocated to more than one program. For some
of those employees, the allocation among programs was not documented on the timesheets or otherwise documented
to substantiate the allocation of pay to the various programs.” In addition, the previous auditor noted that the
agency’s cost allocation plan had not been updated in several years and recommended that the agency review and
update its cost allocation plan regularly.

                                                         5
           Cenla had two mortgages on the Miss Muffett Head Start facility, one for renovation and
           the second for financing overages related to the renovation. This facility also is used to
           administer the CSBG program; however, Cenla used Head Start funds to pay the entire
           monthly mortgages of $4,558 and $1,825. Cenla paid a portion of the utilities for this
           facility with CSBG funds.

Internet Service

Cenla’s cost allocation plan did not address the allocation of Internet service costs. Cenla used
Head Start funds to pay the entire amount charged for Internet services during February 2011 at
the central office ($325) and the Miss Muffett facility ($379).3 Cenla’s central office houses
some functions of all Cenla programs; the Miss Muffett facility houses both Head Start and the
CSBG program.

Travel

According to Cenla’s cost allocation plan, travel costs incurred by central office staff should be
charged to the benefitting program. We identified one instance in which Cenla used $543 in
Early Head Start Recovery Act funds for two employees who worked exclusively on the CSBG
to attend a conference related to the CSBG. As a result of our review, Cenla reimbursed the
Early Head Start Recovery Act account.

Other Costs

Cenla’s Financial Procedures Manual states that common costs benefiting more than one grant
or contract should be allocated among the benefiting grants and contracts. The manual also
states that the financial manager should maintain in writing a common-costs allocation procedure
that should be approved by the executive director.

Cenla used $10,929 in Head Start and Early Head Start funds to pay for a server the finance
department used. The finance department performs functions for all programs Cenla
administers. However, the financial manager stated that Cenla did not allocate the server’s cost
among various programs because it would have had to submit budget justifications to the other
programs for approval.

PROPERTY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees are required to maintain accurate records for equipment
acquired with Federal funds. The records should include information such as a description of the
equipment; the manufacturer’s serial number, model number, Federal stock number, national
stock number, or other identification number; the source of the equipment, including the award
number; whether the title vests in the recipient or the Federal Government; the acquisition date;
the location and condition of the equipment; the unit acquisition cost; and ultimate disposition
data. Also, pursuant to 45 CFR § 74.21(b)(3), grantees are required to have effective controls


3
    The $379 Miss Muffet Internet charge was for 2 months because Cenla did not pay the bill for the previous month.
                                                           6
and safeguards in place to ensure accountability over funds, property, and other assets to protect
against loss and to ensure that assets are used solely for authorized purposes.

Cenla did not consistently tag equipment for identification and inventory purposes. Also, the
property records had inaccurate serial and model numbers, locations, and equipment condition
information. For example, during our observation of the physical inventory that a Cenla
employee conducted of 82 items at 2 locations, we found that property records did not include
Cenla tag numbers for 38 items, had incorrect tag numbers for 6 items, and had inaccurate serial
and model numbers for 7 items. Maintaining inaccurate property records creates opportunities
for the misappropriation of assets.

INNEFFECTIVE EQUIPMENT INVENTORY CONTROL PROCEDURES

Federal Requirements

Pursuant to 45 CFR § 74.21(b)(3), a recipient’s financial management system shall provide for
effective control over and accountability for all funds, property, and other assets. Recipients
shall adequately safeguard all such assets and ensure that they are used solely for authorized
purposes.

Pursuant to 45 CFR § 1304.50(g)(2), grantee agencies must ensure that appropriate internal
controls are established and implemented to safeguard Federal funds in accordance with 45 CFR
§ 1301.13.

Pursuant to 45 CFR § 74.34(f), grantees are required to take a physical inventory of equipment
every 2 years and reconcile the results with the equipment records.

Inventory Not Completed Every Two Years

Cenla did not take an inventory during the 2 years prior to our audit. 4 While discussing
inventory procedures with the assistant financial manager, she decided to take inventory, which
we observed at two Cenla facilities. During this inventory, we found:

         18 items that were included on the inventory list (an audiometer, a laminator machine, 3
         printers, and 13 computers) were missing;

         12 items that were listed as equipment on the inventory list of the 2 facilities were located
         at other facilities; and

         6 items that were not included on the inventory list (e.g., 3 computers and a printer
         purchased before 2008).
4
  Cenla’s current independent auditor had not reported any findings related to inventory. However, the previous
independent auditor noted in its 2004 and 2005 audit reports that Cenla had not performed a physical inventory
during the 2 years before the reports. The previous auditor recommended that the agency perform a physical
inventory at least once every 2 years and reconcile the results of the physical inventory to the equipment records.


                                                          7
Inadequate Segregation of Duties

According to Cenla’s fixed-assets policy:

       The finance department should prepare and maintain the initial fixed-assets listing.

       The purchasing department should ensure that all fixed assets are properly marked with
       the appropriate identifying tag, take a physical inventory of all fixed assets and ensure
       that the inventory is accurate, and report any loss to the financial manager.

       The facility supervisors and/or the component managers should notify the purchasing
       department in writing when any fixed assets are moved to other locations and notify the
       purchasing department in all cases of the loss, damage, or destruction of fixed assets.

The policy further states that the fixed assets should be recorded in each program’s general
ledger by the financial manager, who will reconcile the amounts recorded in the general ledger
with the fixed-asset records annually.

Cenla did not follow Federal requirements or its fixed-assets policy and did not have adequate
segregation of duties for conducting physical inventories. We observed the assistant financial
manager prepare, update, and perform the annual inventory rather than share those duties with
others. In addition, the assistant financial manager told us that the finance department is the only
department currently preparing, updating, and performing an annual inventory. Allowing the
same individual to perform all functions increases the opportunity for that individual to divert
assets.

PROCUREMENT PROCEDURES

Federal regulations (45 CFR § 74.44) require grantees to have written procurement procedures
that provide for sufficient controls and safeguards over the procurement process. Pursuant to 45
CFR § 74.45, grantees are required to document the cost or price analysis in the procurement file
for each procurement action.

According to Cenla’s procurement and cash disbursement procedures, to purchase goods an
employee must complete a purchase requisition, submit it to the program director for approval,
have it initialed by the executive director, and submit it to the finance department for approval.
Upon receipt of a completed purchase requisition, the purchasing department should prepare a
purchase order. Additionally, purchases of more than $500 but less than $2,500 require at least
three informal bids.

Cenla did not always follow its written procedures. For example, we found that items:

       did not have purchase requisitions (17 items) and/or purchase orders (11 items),

       lacked the required bids (2 items), and



                                                 8
       were not approved by the executive director (5 items) and/or the finance department (9
       items).

NON-FEDERAL SHARE

Federal regulations (45 CFR § 1301.20) require grantees to provide 20 percent of the total costs
of the Head Start program through non-Federal share.

Pursuant to 45 CFR § 74.23(a), to be acceptable, matching contributions must be necessary and
reasonable to properly and efficiently accomplish program objectives and be verifiable from the
recipient’s records. Pursuant to 45 CFR § 74.23(d), volunteer services furnished by professional
and technical personnel, consultants, and other skilled and unskilled labor may be counted as
cost sharing or matching if the service is an integral and necessary part of an approved project or
program.

OHS required Cenla to provide $1,622,088 in non-Federal share. Cenla provided support for
$2,575,575. Cenla included $70,282 in non-Federal share for parent involvement, such as parent
meetings and parent attendance at proms, pageants, and parades. These activities do not
constitute goods or services that benefit the program and qualify as in-kind contributions. Cenla
included $1,730,784 in non-Federal share for parent/child activities such as “Reading at Home,”
“Attending Meet Your Teacher,” and “Donations.” We identified many instances in which in-
kind contributions included for “Reading at Home” were improbable. For example, some
parents reported in-kind contributions for “Reading at Home” in excess of 500 hours per month,
an average of 17 to 18 hours per day. The executive director and the social services manager
agreed that this was excessive. During FY 2010, we identified 362 instances of parents claiming
to have provided more than 100 hours of in-kind contributions during a month.

REAL PROPERTY ACQUIRED OR IMPROVED WITH GRANT FUNDS

Regulations (45 CFR § 1309.21(a)) establish a Federal interest in all equipment acquired with
grant funds, as well as in real property acquired or upon which major renovation has been
undertaken with grant funds.

Regulations (45 CFR § 1309.21(b)) state: “Facilities acquired with grant funds may not be
mortgaged or used as collateral … without the written permission of the responsible HHS
official.”

Regulations (45 CFR § 74.37) state: “Real property, equipment, intangible property and debt
instruments that are acquired or improved with Federal funds shall be held in trust by the
recipients … and shall not be encumbered without the approval of the HHS awarding agency.”

Cenla acquired four loans for which it used Head Start-purchased real property as collateral
without the written permission of the responsible HHS official. Cenla obtained one loan to
refinance its central office. Cenla used the central office and the Diddle Diddle Head Start
facility as collateral for this loan. Two loans were for the Miss Muffett Head Start facility, one
for renovating the building and the second for cost overruns related to the renovation. Cenla
used the Miss Muffett facility as collateral for both loans. Cenla acquired a fourth loan to
                                                 9
purchase the Fairchild Head Start facility and used the central office and the Diddle Diddle and
Fairchild facilities as collateral. By obtaining a loan for which Federal property is held as
collateral, Cenla put Federal funds at risk. If a grantee defaults on an encumbered loan, its Head
Start program could lose access to equipment or property that was purchased with taxpayer
funds.

CREDIT CARD POLICY

According to Cenla’s credit card policy, credit cards should be used in emergency situations and
must be signed out in the log book. When signed back in, the credit cards must be accompanied
by the actual receipts and approved purchase requests and purchase orders.

Cenla did not comply with its credit card policy. We identified 36 instances in which the credit
cards were not signed in or out of the log book. In addition, two of the items sampled from the
credit card statements were not accompanied by the actual receipts. The grantee’s
noncompliance with its credit card policy could have resulted in unauthorized purchases.

FISCAL CONTROL AND ACCOUNTABILITY

Pursuant to 45 CFR § 74.21(b)(3), a recipient’s financial management system shall provide for
effective control over and accountability for all funds, property, and other assets. Recipients
shall adequately safeguard all such assets and ensure that they are used solely for authorized
purposes.

According to Cenla’s Financial Procedures Manual, the finance department is responsible for all
blank checks. All blank checks should be stored in a cabinet in the finance department, and the
door to the department should be locked. The manual also states that all voided checks must be
marked “VOID” in ink on the front of the check and filed in the check copy file.

We identified two voided checks that Cenla had not maintained in the check copy file. Cenla did
not produce the voided checks when we requested them. A Cenla official later faxed us copies
of the voided checks. However, for each check we noticed that the check number located in the
magnetic ink character-recognition strip at the bottom of the checks did not match the check
numbers located in two other locations on the check, raising concerns that the checks may have
been altered. Upon inquiry with Cenla’s financial institution, a bank official agreed that the two
voided checks appeared to have been altered. Failure to properly maintain checks in accordance
with the written procedures presents a serious risk to the fiscal controls and accountability over
Federal funds and limits Cenla’s ability to ensure that such assets are used solely for authorized
purposes.

RECOMMENDATIONS

We recommend that OHS:

       impose special award conditions to address the shortcomings of Cenla’s financial system
       and to ensure that Cenla conforms to Federal requirements and the terms and conditions
       of the grant award;
                                                10
       ensure that Cenla’s contractual agreements are adequate and that it maintains records for
       fixed-fee contracts sufficient to demonstrate that the fixed fee is reasonable;

       work with Cenla to determine whether the fixed fee for the consultant is reasonable and
       whether future payments on the contract should be made;

       review Cenla’s cost allocation plan to determine appropriateness and coverage;

       work with Cenla to determine the amount of joint costs, identified in the body of the
       report under “Cost Allocation,” that were not properly allocated to the Head Start
       program, and require Cenla to refund that amount; and

       provide Cenla technical assistance and guidance to ensure that it:

           o allocates costs according to cost allocation plans,

           o accurately maintains property records,

           o follows its policies for performing a physical inventory at least once every 2 years
             and that it segregates duties so that individuals who maintain property records are
             not the same individuals who perform the physical inventory,

           o requires employees to follow its written procedures for procurement,

           o claims non-Federal share only for volunteer services and parent/child home
             activities that are necessary and reasonable to properly and efficiently accomplish
             program objectives,

           o does not use real property purchased with Head Start funds as collateral on loans
             without proper approval,

           o requires employees to follow its written credit card policy, and

           o develops more robust policies and procedures for safeguarding and managing
             checks (including having upper management oversee those who are responsible
             for handling checks).

CENLA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cenla agreed with five findings, disagreed with eight
findings, and did not address three findings. Cenla described the corrective actions that it
planned to take to address some of the findings with which it disagreed and those with which it
concurred. In addition, Cenla stated that the Office of Inspector General (OIG) does not have the
authority to conduct reviews of HHS grantees. Cenla’s comments are summarized below and
included in their entirety as Appendix A. Nothing in Cenla’s comments caused us to change our
findings or recommendations.

                                               11
Office of Inspector General’s Statutory Authority

Cenla Comments

Cenla stated that section 9(a)(2) of the Inspector General Act prohibits the transfer of
programmatic duties from HHS to OIG. Cenla said that the audit replaced HHS’s statutory
reviews under section 641A(c) of the Head Start Act. The grantee said that OIG’s duty is to
review HHS’s performance of its duties and that OIG should not perform HHS’s duties as a
surrogate.

Office of Inspector General Response

Under the Inspector General Act of 1978 (the Act), as amended, 5 U.S.C. Appendix 3, sections
1-13, the OIG is responsible for conducting audits and investigations to detect and prevent fraud,
waste, and abuse in HHS’s programs and operations. This responsibility includes conducting
audits and investigations of HHS’s operations, its employees, contractors, grantees, and other
recipients of Federal funds.

Section 2 of the Act states that OIG is “to conduct … audits and investigations relating to the
programs and operations” of HHS. Head Start is an HHS program. Cenla is a Head Start
grantee in receipt of Federal funds provided to carry out the purposes of the program within the
Federal framework provided under the Head Start Act and other relevant Federal requirements.
A review of how grantees account for and expend funds is one of the ways OIG safeguards
HHS’s programs and detects fraud, waste, and abuse. There is no question as to whether we
have authority to audit Federal funds awarded by HHS and received and administered by Cenla.

We also note that the audit was performed in accordance with the Act and did not replace the
regular monitoring reviews that HHS undertakes as part of its oversight process, which is set
forth in section 641A(c) of the Head Start Act.

Claimed Consultant Costs Without an Adequate Contractual Agreement

Cenla Comments

Cenla disagreed with our finding, stating that it conducted a cost-benefit analysis and determined
that its method was reasonable and cost effective. Cenla also said that it had based its decision to
contract with this consultant on fees charged by a former technology consultant that charged
much more.

Office of Inspector General Response

We were not provided supporting documentation of a cost-benefit analysis or any documentation
to support that the fixed fee was reasonable. When we asked the financial manager to explain
how the fixed fee was determined, we were informed that Cenla does not bid fixed-fee contracts
and that there was not any additional documentation in the procurement records for the
contractor.

                                                12
Did Not Ensure That Joint Costs Were Allocated Among Various Programs Administered
by Cenla

Administration Salaries

Cenla Comments

Cenla disagreed with our finding, stating that it had performed a desk audit in the past that
documented the amount of time employees worked on various programs.

Office of Inspector General Response

We were never provided with the desk audit and were told by the financial manager that salaries
were allocated based on budgeted amounts, not timesheets or timestudies. Additionally, Cenla’s
cost allocation plan states that “personnel services cost allocation will be reflected by payroll
timesheets.” Cenla’s timesheets documented only the number of hours employees worked each
day; they did not reflect the programs on which the employees worked.

Mortgages

Cenla Comments

Cenla concurred with our finding on the allocation of the Central Office’s mortgage. Cenla
disagreed with our finding on the allocation of the Miss Muffett mortgages. Cenla stated that
because the Miss Muffett facility required renovations to meet Class A licensing standards and
Head Start performance standards, all costs incurred were paid with Head Start funds.

Office of Inspector General Response

Although the Miss Muffett mortgages were for renovations required to meet Head Start
requirements, the renovation of a building would benefit all occupants, and Cenla did not provide
any documentation indicating that the CSBG program did not benefit from this renovation.

Internet Service

Cenla Comments

Cenla concurred with our finding.

Travel

Cenla Comments

Cenla stated that it disagreed with our finding, noting, as did our report, that its cost allocation
plan specifies that travel costs incurred by central office staff be charged to the benefiting
program. However, Cenla agreed with our report that the travel costs in question were
erroneously charged to the Head Start program and reimbursed as a result of our review.
                                                  13
Other Costs

Cenla Comments

Cenla concurred with our finding, stating that future costs will be allocated among all benefitting
programs.

Did Not Tag Equipment for Identification and Inventory Purposes

Cenla Comments

Cenla disagreed with the finding, stating that it has ensured that effective controls and safeguards
are in place for funds, property, and other assets to protect against loss and to ensure that assets
are used solely for authorized purposes. Cenla further stated that it will consistently tag
equipment for identification and inventory purposes.

Office of Inspector General Response

During our review, we identified several instances in which equipment was not properly tagged.

Did Not Accurately Record Equipment in the Inventory Log

Cenla Comments

Cenla disagreed with the finding; however, Cenla stated that equipment that needs to be deleted
from the inventory list will be taken off and disposed of properly.

Office of Inspector General Response

During our review, the records indicated that there were items that should have been removed
from the list and items that were not included on the inventory list that should have been.
Therefore, Cenla did not accurately record equipment in the inventory log.

Did Not Conduct Physical Inventory Every Two Years

Cenla Comments

Cenla did not comment on our finding.

Completed Inventories Without Adequate Segregation of Duties

Cenla Comments

Cenla did not comment on our finding.




                                                14
Did Not Follow Written Procurement Procedures

Cenla Comments

Cenla did not comment on our finding.

Claimed Unallowable and Excessive Volunteer Services as Non-Federal Share

Cenla Comments

Cenla disagreed with our finding, stating that even though it agreed that some of its non-Federal
share was excessive and unallowable, the bulk was enough to satisfy its matching requirement.

Office of Inspector General Response

Cenla should ensure that it includes as Federal share only volunteer services and parent/child
activities that are necessary and reasonable to properly and efficiently accomplish program
objectives.

Secured Loans Using Head Start-Purchased Real Property as Collateral Without Proper
Approval

Cenla Comments

Cenla disagreed with our finding, stating that each time it had submitted its re-funding proposal,
it had included the installment loans. Cenla stated that because the proposals were approved, the
loans were approved.

Office of Inspector General Response

Cenla acquired the loans using Head Start-purchased real property as collateral. As such, Cenla
was required to obtain written permission from the responsible HHS official. Cenla did not
provide support showing that it had obtained approval to use the Head Start-purchased property
as collateral for the loans.

Did Not Comply With Its Credit Card Policy

Cenla Comments

Cenla concurred with our finding, stating that its credit card policy was unrealistic and that it has
been revised to reflect what actually occurs.




                                                 15
Did Not Adequately Safeguard and Manage Checks

Cenla Comments

Cenla concurred with our finding, stating that corrective action has been taken to ensure that
checks are properly maintained.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS concurred with all of our recommendations.
OHS’s comments are included in their entirety as Appendix B.




                                                16
APPENDIXES
                             Page 1 of 5


APPENDIX A: CENLA COMMENTS
Page 2 of 5
Page 3 of 5
Page 4 of 5
Page 5 of 5
                                            Page 1 of 3




APPENDIX B: OFFICE OF HEAD START COMMENTS
Page 2 of 3
Page 3 of 3
